TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                        Improvements Are Needed When
                     Identifying Revenue Officer Casework



                                       March 16, 2010

                           Reference Number: 2010-30-029




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 2(c) = Law Enforcement Tolerance(s)
 2(f) = Risk Circumvention of Agency Regulation or Statute



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                    DEPARTMENT OF THE TREASURY
                                                        WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                    March 16, 2010


 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – Improvements Are Needed When Identifying
                                 Revenue Officer Casework (Audit # 200930012)

 This report presents the results of our review to determine whether the Small Business/
 Self-Employed Division is properly applying the grade General Schedule 1 (GS)-13 case criteria
 and ensuring revenue officers (RO) have an appropriate balance of assigned cases. The review
 was conducted as part of our Fiscal Year 2009 Annual Audit Plan under the major management
 challenge of Tax Compliance Initiatives.

 Impact on the Taxpayer
 The GS-13 RO position was established to address the need for a new set of skills and tools to
 deal with more sophisticated taxpayers and more complex casework. However, the Internal
 Revenue Service (IRS) is not identifying sufficient numbers of GS-13 cases to support the
 number of GS-13 ROs. Taxpayers may be burdened because cases can be worked for a
 significant time period by a lower graded RO before the case is re-graded and reassigned to the
 GS-13 RO who will ultimately close the case.




 1
     See Appendix VI for a glossary of the terms.
                                         Improvements Are Needed When
                                      Identifying Revenue Officer Casework




Synopsis
In Calendar Year 2004, the IRS Payment Compliance and Strategic Human Resource
Management office initiated an occupational study of the RO position. The purpose of the study
was to determine the skill sets needed for ROs to successfully work a changing and more
complex inventory. As a result of this study, in March 2006, the Small Business/Self-Employed
Division announced the creation of the GS-13 RO position. Consequently, the RO Case
Assignment Guide (CAG) was revised based on the tasks, competencies, and position
descriptions at the GS-09 through GS-13 grade levels.
The IRS established target inventory levels for each RO grade to ensure maximum productivity
without an impact on quality. The inventory level for GS-13 ROs is 34 to 50 cases, of which
approximately 60 percent must be cases graded at the GS-13 level (20 to 30 cases). Collection
function group managers are responsible for monitoring inventory levels to ensure ROs are
assigned a number of cases consistent with their respective grade’s target inventory level.
According to collection inventory reports from September 30, 2006, through June 30, 2009, not
all GS-13 ROs were actively working cases. In addition, over the past 3 fiscal years more than
70 percent were not assigned a sufficient number of GS-13 cases. We identified several reasons
why the Collection function did not identify sufficient numbers of complex cases for
GS-13 ROs:
    •    The delivery of GS-13 cases is not systemic. To identify cases for GS-13 ROs, group
         managers must manually apply CAG factors to systemically delivered lower graded
         cases.
    •    Group managers rely on lower graded ROs to identify the majority of cases. While
         group managers identify some potential GS-13 cases during their initial case reviews,
         they also rely on lower graded ROs to identify cases meeting the GS-13 CAG factors.
         Re-graded GS-13 cases were originally assigned and worked by a GS-12 (or lower) RO
         in 132 (98 percent) of the sampled 2 135 re-graded cases.
    •    CAG criteria are subjective, similarly worded, and not consistently interpreted. In
         order to be manually re-graded to a GS-13 case, a case should meet three of the four
         CAG 3 factors necessary for GS-13 grading. 4 However, this process is tedious,
         subjective, and prone to misinterpretation. Our review of 135 open GS-13 cases


2
  We selected a statistically valid sample of 135 grade GS-13 level cases from a population of all 2,543 open
Integrated Collection System cases as of April 22, 2009.
3
  See Appendix V for CAG factors.
4
  The manager must document in the case history the reason if not using at least three of the four factors when
re-grading a case.
                                                                                                                  2
                                     Improvements Are Needed When
                                  Identifying Revenue Officer Casework



          identified 16 cases (12 percent) 5 that were erroneously re-graded because group
          managers did not properly apply CAG factors.
      •   Manually re-graded cases were not properly documented. When a case is manually
          re-graded based on the application of CAG factors, the group manager is required to
          properly document why the case was re-graded. In 72 cases (53 percent), 6 group
          managers did not properly document the factors used to re-grade the cases in the
          Integrated Collection System histories.
      •   The number of GS-13s has increased over the past 4 fiscal years. Despite the
          difficulty identifying sufficient GS-13 workload, the IRS has increased the number of
          GS-13 ROs each year since the inception of the position. The number of GS-13 ROs has
          increased from 34 at the end of Fiscal Year 2006 to 148 as of June 2009, based on a
          resource forecasting formula that estimates GS-13 workload using the number of
          GS-12 graded cases.
We estimate the IRS paid more than $1.4 million in salary for the time GS-13 ROs spent
working on lower graded cases instead of their targeted GS-13 graded inventory. In addition,
taxpayers may have been impacted when complex cases were not initially assigned to GS-13
ROs. For the 132 cases that were re-graded after assignment, the GS-12 (or lower) RO spent an
average of 604 calendar days (more than 20 months) working on the case before it was
reassigned to a GS-13 RO. The GS-13 RO ultimately completed and closed the case, which
provided closure for the taxpayer. Compounded by the poorly documented case histories, the
GS-13 RO may spend significant time getting familiar with the case before moving towards
closure.

Recommendations
The Director, Collection Policy, Small Business/Self-Employed Division, should
1) continue to emphasize, through training, the correct application of CAG factors and the
importance of proper documentation when changing case grades; 2) expand the capabilities of
the Integrated Collection System pick list so that it can be used to identify the criteria used to
change the grade of a case to GS-13; 3) clarify CAG factor elements to make them less
subjective and eliminate instances where they are vague, and assess whether each CAG factor
contributes equally to the relative complexity of the case and if the methodology for justifying
re-grading to a GS-13 is commensurate with the case complexity; and 4) establish methods to
improve the effectiveness and efficiency of manually identifying GS-13 RO cases. The Director,
Planning and Analysis, Small Business/Self-Employed Division, should 5) identify methods to


5
    Rounded from 11.85 percent.
6
    Rounded from 53.33 percent.
                                                                                                 3
                                   Improvements Are Needed When
                                Identifying Revenue Officer Casework



expand the number of GS-13 cases that meet the Range of Case Issues CAG factor that can be
identified systemically using Inventory Delivery System enhancements currently being
developed; and 6) compare and monitor the actual number of GS-13 graded cases that have been
identified and assigned to GS-13 ROs with the number of estimated cases that was used to
determine more GS-13 ROs were needed and make adjustments to the forecasting methodology
as appropriate.

Response
IRS management agreed with all of our recommendations. The IRS will develop a training tool
that addresses the correct application of CAG factors and the importance of proper
documentation and use that tool to conduct ongoing training for managers and ROs. The IRS
has already completed Integrated Collection System programming changes that require use of a
pick list to identify GS-13 CAG factors when re-grading cases. Additional enhancements are
scheduled for January 2011 to require that an additional pick list be used to identify the CAG
subfactors as well. The IRS will form a team to evaluate and recommend changes to the
Director, Collection, to improve the effectiveness and efficiency of managers using appropriate
CAG factors to manually identify GS-13 cases. Changes will include reducing or eliminating the
subjectivity of CAG factors and may apply to manual grading and systemic enhancements.
Further enhancements to the Inventory Delivery System for systemic case grading are dependent
upon changes made to the CAG factors or systemic changes and, upon completion, a request for
systemic changes to the Inventory Delivery System will be considered and submitted as
warranted. The Director, Collection Planning and Analysis, will monitor the number of GS-13
graded cases and use this information in determining the appropriate GS-13 RO resources
needed.
The IRS disagreed with our outcome measure. The IRS stated that the calculation for the cost of
GS-13 ROs salaries did not consider inventory adjustments made for legitimate business reasons.
The IRS believes the number of ROs used in the calculation should reflect the percentage of ROs
on an adjusted (reduced) inventory and, based on August 2009 data, the estimated additional
costs calculation should be decreased by 28 percent. Management’s complete response to the
draft report is included as Appendix VII.

Office of Audit Comment
The Internal Revenue Manual does not provide that the number of GS-13 cases be adjusted due
to time spent on collateral duties. The IRS response implies the inventory reduction should be
proportional to the complexity of the target inventory, but since there is no policy, we did not
make this assumption. For example, the GS-12 and lower graded cases could be reduced from
the GS-13 RO’s inventory first, which would not impact the GS-13 graded inventory.

                                                                                                   4
                                 Improvements Are Needed When
                              Identifying Revenue Officer Casework



The Internal Revenue Manual states that GS-13 ROs have a minimum of approximately
20 GS-13 cases in their inventory. Our outcome measure was based on how many GS-13 ROs
would be needed using the number of GS-13 cases in the inventory as of June 2009 (not
August 2009 data), and the minimum 20 cases for each RO.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                         5
                                               Improvements Are Needed When
                                            Identifying Revenue Officer Casework




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          The Collection Function Is Not Identifying a Sufficient Number of
          Grade 13 Cases for Its Highest Skilled Revenue Officers ........................ Page 3
                    Recommendation 1:........................................................Page 9

                    Recommendations 2 through 6:.........................................Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 12
          Appendix II – Major Contributors to This Report ........................................Page 15
          Appendix III – Report Distribution List .......................................................Page 16
          Appendix IV – Outcome Measures...............................................................Page 17
          Appendix V – Case Assignment Guide for Grade 12 and Grade 13
          Revenue Officers ..........................................................................................Page 19
          Appendix VI – Glossary of Terms................................................................Page 22
          Appendix VII – Management’s Response to the Draft Report.....................Page 24
             Improvements Are Needed When
          Identifying Revenue Officer Casework




              Abbreviations

CAG     Case Assignment Guide
CID     Criminal Investigation Division
FY      Fiscal Year
GS      General Schedule
IRS     Internal Revenue Service
RO      Revenue Officer
SB/SE   Small Business/Self-Employed
                                         Improvements Are Needed When
                                      Identifying Revenue Officer Casework




                                            Background

The Internal Revenue Service (IRS) Small Business/Self-Employed (SB/SE) Division serves
approximately one-third of the total taxpayer population. To be effective, the SB/SE Division
Collection function needs a workforce that possesses the appropriate skills and competencies to
perform the necessary tasks to fulfill its mission.
In Calendar Year 2004, the IRS Payment Compliance and Strategic Human Resource
Management office initiated an occupational study of the revenue officer (RO) 1 position. The
purpose of the study was to determine the skill sets needed for ROs to successfully work a
changing and more complex inventory. The study included surveys of ROs and group managers
on the tasks and competencies currently used on the job and a projection of the skills needed for
the future. A team of subject matter experts examined the changes in the types of cases and
identified new tasks and competencies that were used in the survey and then incorporated into
the RO occupation.
The study reported an increased complexity within Collection Field function inventories. It
recommended that to work these cases, a new set of skills
and tools were needed to deal with more sophisticated
                                                             The GS-13 RO position was
taxpayers. In March 2006, as a result of the occupational
                                                              established in July 2006 to
study of the RO position, the SB/SE Division announced        address the most complex
the creation of the grade General Schedule (GS)-13 RO              collection cases.
position. The Payment Compliance and Strategic Human
Resource Management office completed several initiatives
that supported the establishment of a higher graded GS-13 RO position. Specifically, the
initiatives were:
      •    New RO tasks and competencies were identified at the GS-05 through GS-13 grade
           levels.
      •    New position descriptions were developed to incorporate the new tasks and competencies
           at the GS-05 through GS-13 grade levels.
      •    A new position description for a GS-14 group manager was developed.
      •    The RO Case Assignment Guide (CAG) was revised based upon the tasks, competencies,
           and position descriptions at the GS-09 through GS-13 grade levels. 2



1
    See Appendix VI for a glossary of the terms.
2
    See Appendix V for CAG factors and their respective subelements for GS-12 and GS-13 ROs.
                                                                                               Page 1
                                  Improvements Are Needed When
                               Identifying Revenue Officer Casework



   •   An interview/competency assessment for the GS-13 position was developed.
The SB/SE Division uses the Integrated Data Retrieval System for systemic case grading. This
system assigns a case’s grade by combining the Resources and Workload Management System
scores for all Taxpayer Delinquency Accounts with the Taxpayer Delinquent Individual Entity
scores. The SB/SE Division is in the process of revising the systemic approach to case grading
and delivery, and plans to replace the Resources and Workload Management System. The new
approach is planned to incorporate the revised CAG and be implemented as an enhancement to
the Collection function’s Inventory Delivery System. At the time of our review, the
SB/SE Division was scheduled to complete this Inventory Delivery System enhancement in
January 2011.
This review was performed at the SB/SE Division Headquarters in New Carrollton, Maryland,
during the period March through September 2009. We conducted this performance audit in
accordance with generally accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe that the
evidence obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. Detailed information on our audit objective, scope, and methodology is
presented in Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                                        Improvements Are Needed When
                                     Identifying Revenue Officer Casework




                                     Results of Review

The Collection Function Is Not Identifying a Sufficient Number of
Grade 13 Cases for Its Highest Skilled Revenue Officers
The IRS established target inventory levels for each RO grade in order to obtain maximum
productivity without a cost to quality for the Collection Field function. The inventory levels also
provide a measure of uniformity among the Collection Field function offices. The inventory
level for GS-13 ROs is 34 to 50 cases, of which approximately 60 percent must be cases graded
at the GS-13 level (20 to 30 cases) and 40 percent may be lower graded cases. 3 Because of the
complexity of the GS-13 casework, IRS procedures recommend GS-13 RO inventory levels be
kept at, or near, the bottom of the target inventory level.
Collection function inventory reports provide a snapshot of the total number of cases assigned to
each RO and a breakdown of the assigned cases by grade level. We analyzed the September 30th
collection inventory reports for Fiscal Years (FY) 2006, 2007, and 2008, and the June 30th report
for FY 2009. Figure 1 shows that since the position was established, the number of GS-13 ROs
who have been assigned a sufficient number of GS-13 cases has never reached 30 percent.
                   Figure 1: GS-13 ROs Meeting Inventory Target Levels

                                                          09/30/06       09/30/07        09/30/08        06/30/09

    Total GS-13 ROs                                           34            120             123               148
    GS-13 ROs not assigned cases 4                            10              11              8                23
    Active GS-13 ROs                                          24            109             115               125
    Active GS-13 ROs assigned at least
                                                               0             30              25               28
    60 percent grade GS-13 casework
    Percentage of active ROs who met target
                                                               0             28              22               22
    inventory level
Source: Treasury Inspector General for Tax Administration analysis of Collection function inventory reports
ending on September 30, 2006, 2007, and 2008, and on June 30, 2009.


3
 May include returns filed in other years for taxpayers with cases graded at the GS-13 level.
4
 GS-13 ROs may not be assigned cases to work for a variety of reasons such as temporary assignments, medical
conditions, assignment of collateral duties, etc. For example, 17 of the 23 GS-13 ROs who were not assigned cases
on June 30, 2009, were on temporary group manager assignments.
                                                                                                          Page 3
                                          Improvements Are Needed When
                                       Identifying Revenue Officer Casework



Conversely, in each year since the position was created in FY 2006, more than 70 percent of
active GS-13 ROs have not had a sufficient number of GS-13 cases assigned to them. We also
compared the assigned GS-13 graded casework with the target inventory for GS-13 ROs.
Figure 2 shows the potential number of GS-13 ROs that could be supported by the
GS-13 casework identified and assigned over the past 4 fiscal years, based on the target
inventory levels.
                   Figure 2: Potential Number of GS-13 ROs Supported by
                          Identified and Assigned GS-13 Casework

                                                          09/30/06       09/30/07       09/30/08       06/30/09
     Grade GS-13 cases identified and
                                                              0            1,765          1,603          1,757
     assigned
     Minimum target inventory of GS-13 cases
                                                              20             20             20             20
     for each GS-13 RO 5
     GS-13 ROs supported by the GS-13
                                                              0              89             81             88
     casework identified and assigned 6
     Total GS-13 ROs on IRS’ payroll                          34            120            123            148
     GS-13 ROs not supported by GS-13
                                                              34             31             42             60
     casework identified and assigned
    Source: Treasury Inspector General for Tax Administration analysis of collection inventory reports ending on
    September 30, 2006, 2007, and 2008, and on June 30, 2009.

The GS-13 grade case inventory identified and assigned does not support the number of
GS-13 ROs that have been promoted. For example, at the
end of FY 2008, the Collection function had identified a
case inventory to support only 81 GS-13 ROs. Despite           The IRS increased the
this identification, the IRS increased the number of           number of GS-13 ROs
                                                                 before identifying
GS-13 ROs from 123 at the end of FY 2008 to 148 as of         sufficient work for them.
June 2009. We determined several reasons why the
Collection function is not identifying enough complex
cases for GS-13 ROs to work.
      •   There is no systemic delivery of GS-13 cases.
      •   Group managers rely on lower graded ROs to identify most of the GS-13 RO work.

5
  Based on a minimum of 34 total cases per GS-13 RO, of which approximately 60 percent must be GS-13 graded
cases (34 x 0.60 = 20 cases).
6
  All fractions were rounded up to next whole number.
                                                                                                           Page 4
                                    Improvements Are Needed When
                                 Identifying Revenue Officer Casework



   •   CAG criteria are subjective, similarly worded, and not consistently interpreted.
   •   Manually re-graded cases were not properly documented.
   •   The number of GS-13 ROs has increased over the past 4 fiscal years.
As a result of not identifying a sufficient number of complex cases, we estimate that since the
position was created in March 2006, the IRS has paid more than $1.4 million in salary for the
time GS-13 ROs spent working on lower graded cases instead of their targeted GS-13 graded
inventory. In addition, taxpayers may have been impacted when complex cases were not initially
assigned to GS-13 ROs. For a statistical sample of cases that were re-graded after they were
initially assigned, the GS-12 (or lower) ROs spent an average of 604 calendar days (more than
20 months) working on cases before they were reassigned to GS-13 ROs. The GS-13 ROs
ultimately completed and closed the cases, which provided closure for the taxpayers.
Compounded by improperly documented case histories, the GS-13 ROs may have spent time
getting familiar with the details of the cases and duplicating work before closing the cases.

There is no systemic delivery of GS-13 cases
Collection function cases are assigned a case grade level to reflect the probable level of difficulty
in resolving them. For cases that are graded at the GS-09, GS-11, or GS-12 levels, an automated
process systemically assigns the grade based on objective criteria. However, there is no systemic
means to grade or deliver GS-13 graded cases to the field. Instead, group managers must
manually apply CAG factors to the lower graded cases that were systemically delivered to the
inventory.
Group managers manually identify potential GS-13 graded cases in a number of ways:
   •   Manual application of the GS-13 CAG factors to lower graded cases in the Queue.
   •   Manual application of the GS 13 CAG factors when performing RO case reviews.
   •   Referral of cases by specialized groups, such as the Abusive Tax Avoidance Transaction
       Group.
Some group managers acknowledged that it can take several days of searching the Queue to
identify cases for just one GS-13 RO. There are thousands of cases in the Queue, and managers
must review them to search for cases that are candidates for re-grading. Further, the
enhancements in the planned Inventory Delivery System will not eliminate the need to manually
identify GS-13 graded cases. SB/SE Division Collection function managers and analysts advised
us that not all GS-13 cases will be systemically delivered to GS-13 ROs, and the majority of
cases will likely still need to be identified manually. This need is because CAG factors that are
used to grade a GS-13 case are not always objective or known at the time a case is assigned.



                                                                                              Page 5
                                          Improvements Are Needed When
                                       Identifying Revenue Officer Casework



Group managers rely on lower graded ROs to identify most of the GS-13 RO work
Because the process for identifying potential GS-13 RO cases from the Queue is labor intensive
and tedious, managers cannot rely on it as a significant source for GS-13 level cases. In addition,
group managers are not required to perform a 100 percent review of the cases assigned to their
group, so this limits the number of cases that they may identify during routine case reviews. As
a result, group managers must rely on lower graded ROs to identify cases meeting the
GS-13 CAG factors and then refer the cases to the group manager for potential re-grading as a
GS-13 case.
Our review of 135 open GS-13 cases 7 identified 132 cases (98 percent) that were originally
assigned and worked by a GS-12 (or lower) RO before it was determined that the cases should be
re-graded as GS-13 cases. The GS-12 ROs spent an average of 604 calendar days (more than
20 months) working on the cases before they were reassigned to a GS-13 RO. In some cases, the
factors used to re-grade the cases were not identified until the lower graded RO developed the
case and more information was obtained. In those cases, the group manager would not have
known it was a potential GS-13 case when it was assigned. However, lower graded ROs may
not be fully aware of the elements of the GS-13 CAG factors, and reliance on them increases the
risk that cases meeting GS-13 criteria are not identified and reassigned to higher graded ROs.

CAG criteria are subjective, similarly worded, and not consistently interpreted
For a case to be manually re-graded to a GS-13 case, it should meet three 8 of the four GS-13
CAG factors. The four CAG factors are:
    •    Nature of Entity
    •    Range of Case Issues
    •    Impact of Enforcement Action
    •    Personal Contacts
Each of these four CAG factors has a number of subelements that should be used when assessing
case complexity. 9
For a factor to qualify for case re-grading, at least one of the subelements must be met. For
example, the Personal Contacts factor has four subelements. If any one of these four elements is
met, Personal Contacts would qualify as one of the three factors necessary for re-grading to a
GS-13. However, the grade GS-12 and GS-13 CAG factors are subjective, worded similarly, and

7
  We selected a statistically valid sample of 135 grade GS-13 level cases from a population of all 2,543 open
Integrated Collection System cases as of April 22, 2009.
8
  The manager must document in the case history the reason if not using at least three of the four factors when
re-grading a case.
9
  See Appendix V for a complete list of CAG factors and subelements for GS-12 and GS-13 graded cases.
                                                                                                             Page 6
                                           Improvements Are Needed When
                                        Identifying Revenue Officer Casework



prone to misinterpretation. Figure 3 compares the subelements for the Range of Case Issues
CAG factor for GS-12 and GS-13 graded cases.
                Figure 3: Comparison of Selected CAG Factor Subelements

      CAG Factor Subelements for GS-12                              CAG Factor Subelements for GS-13
 In-depth, detailed financial investigations involving             Multi-faceted and intricate financial
 sophisticated and difficult issues (e.g., electronic funds        investigations where taxpayers employ subterfuges
 transfers between multiple accounts) (Abusive Tax                 to conceal income and assets (e.g., wire transfers,
 Avoidance Transactions cases included).                           multiple sets of books, records from layered
                                                                   entities) (Abusive Tax Avoidance Transactions
                                                                   cases included).
 Income and assets that are difficult to trace, specialized,       Highly unique forms of assets that offer a
 highly valuable, or of a unique nature.                           challenge when taking enforcement action.
                                                                   Coordination with Federal, State, and local agencies
                                                                   (e.g., hazardous materials). Unique sources of
                                                                   income such as e-commerce or Internet-based
                                                                   businesses and other emerging industries (e.g., large
                                                                   employing leasing companies).
 Imbalance between income and assets with no clear                 Significant imbalance between income and assets
 explanation (e.g., income is not enough to support existing       with no clear explanation or basis (e.g., minimal
 assets).                                                          income with substantial assets, individuals with no
                                                                   assets and no income but a high standard of living).
 Complex forms of ownership designed to shield income or           Highly complex forms of ownership designed to
 assets (e.g., Limited Liability Corporations, offshore entities   shield income or assets (e.g., multi-layered entities,
 and transactions, fraudulent conveyances, family                  Limited Liability Corporations, offshore entities
 relationships).                                                   and transactions).
 Complex investigative techniques (e.g., nominee, alter-ego,       Highly complex investigative techniques (e.g.,
 suits, jeopardy levies).                                          multiple-entity nominee/alter-ego investigations, all
                                                                   suits including injunction and repatriation, complex
                                                                   jeopardy assessments/levies).
 Large business entities with standard financial structure         Large business entities with complex financial
 or mid-sized business with multiple entity relationships and a    structure and multiple business entity
 complex financial structure.                                      relationships.
 Regular interaction with Counsel, Examination function,           Joint investigations with Examination function,
 Criminal Investigation Division (CID), and Appeals.               CID, and Department of Justice.
Source: Treasury Inspector General for Tax Administration analysis of RO CAG.

Our review of a statistically valid sample of 135 open Integrated Collection System GS-13 cases
identified 16 cases (12 percent) for which group managers did not properly apply CAG factors.
We determined that these cases did not warrant re-grading to GS-13 because there was not
enough evidence in the case file to support a grade change. Based on our sample, we estimate
that 301 open GS-13 cases as of April 22, 2009, did not warrant re-grading to GS-13.

                                                                                                                Page 7
                                   Improvements Are Needed When
                                Identifying Revenue Officer Casework



Group managers are also responsible for ensuring cases that have been re-graded systemically
are also graded accurately. We selected a judgmental sample of 40 open Integrated Collection
System GS-12 cases that had been systemically re-graded from lower grade cases to
GS-12 cases. Our analysis showed that 10 (25 percent) of these cases met CAG factor criteria
for the GS-13, but had not been re-graded as GS-13 cases.
In addition, each CAG factor carries equal weight when determining if the case should be
re-graded. Specifically, no one factor is more important than another. CAG factors that were
cited in the properly documented GS-13 re-graded cases in our statistical sample were:
   •   Nature of Entity – 79 percent
   •   Range of Case Issues – 97 percent
   •   Impact of Enforcement Action – 44 percent
   •   Personal Contacts – 92 percent
The group managers we interviewed believed that each CAG factor does not represent an equal
measure of case complexity. For example, half of the managers interviewed believed the Range
of Case Issues CAG factor should be given more weight due to the amount of time and effort
involved with the discovery process. This CAG factor is generally identified only after the case
has been assigned and significant time has been spent collecting information and working the
case.

Manually re-graded cases were not properly documented
When a case is manually re-graded based on the application of CAG factors, the group manager
is required to properly document why the case was re-graded. Proper documentation would
include listing the CAG factors present in the case that the group manager identified from the
details in the case. The documentation should be entered in the Integrated Collection System
history to support the re-grading of the case.
In 72 (53 percent) of 135 cases, group managers did not properly document the factors used to
re-grade the cases in the Integrated Collection System histories. However, based on the
information in the Integrated Collection System history, we were able to confirm that at least
3 of the 4 GS-13 CAG factors were met in 56 of the 72 cases and that re-grading to GS-13 cases
was warranted.
The Integrated Collection System includes a ‘pick list’ that should be used when manually
re-grading cases. The pick list allows the group manager to select the CAG factors met to
support the re-grading and it also serves to properly document the Integrated Collection System.
However, the pick list is not available when identifying CAG factors for re-grading GS-13 cases.
Instead, group managers must manually document the CAG factors involved with the case
re-grade in the case history, which some managers erroneously believed was not always

                                                                                          Page 8
                                       Improvements Are Needed When
                                    Identifying Revenue Officer Casework



necessary. In addition, some SB/SE Division analysts and managers were unaware of the
documentation requirements for re-grading cases.
Collection function cases that get transferred frequently without proper documentation do not
fully provide the gaining RO with all the details of the case, which can lead to re-investigating
the CAG factors and duplication of efforts. In addition, management loses an opportunity to
collect information about the manually graded GS-13 cases that could be used to ensure the
CAG factors are working as intended and to make decisions about how the planned enhanced
Inventory Delivery System should function. Based on our sample, we estimate 1,356 of the open
GS-13 cases as of April 22, 2009, were not properly documented with information supporting
why the cases were re-graded to the GS-13 level.

The number of GS-13 ROs has increased over the past 4 years
Despite the difficulty of identifying sufficient GS-13 workload, the IRS has increased the
number of GS-13 ROs each year since the inception of the position in July 2006. In fact, the
number increased 20 percent between September 2008 and June 2009, despite 78 percent of the
active GS-13 ROs not having sufficient GS-13 workload and a total inventory that supported
42 fewer GS-13s 10 than were already in place.
When determining how many GS-13 ROs are needed, the IRS uses a forecasting formula to
project the number of grade GS-13 cases that will likely be required to be worked. The formula
uses the number of grade GS-12 cases as its basis. However, the formula has not provided
accurate estimates of the number of GS-13 cases that were actually identified, largely because of
the difficulties that we have described in this report. We estimate that since the position was
created in March 2006, the IRS has paid more than $1.4 million in salary for the time GS-13 ROs
spent working on lower graded cases instead of their targeted GS-13 graded inventory. In
addition, while group managers use Collection function target inventory reports to monitor the
inventory levels for their respective groups, the reports are not used to ensure that there are
sufficient grade GS-13 cases available to support all of the GS-13 ROs nationally.

Recommendations
The Director, Collection Policy, SB/SE Division, should:
Recommendation 1: Continue to emphasize, through training, the correct application of
CAG factors and the importance of proper documentation when changing case grades.
        Management’s Response: IRS management agreed with this recommendation and
        will develop a training tool that addresses the correct application of CAG factors and the


10
  See Figure 2, column with 09/30/08 data, the number of GS-13 ROs not supported by GS-13 casework identified
and assigned.
                                                                                                      Page 9
                                   Improvements Are Needed When
                                Identifying Revenue Officer Casework



       importance of proper documentation and use that tool to conduct ongoing training for
       managers and revenue officers.
Recommendation 2: Expand the capabilities of the Integrated Collection System pick list so
that it can be used to identify the criteria used to change the grade of a case to GS-13.
       Management’s Response: IRS management agreed with this recommendation and
       has already completed Integrated Collection System programming changes that require
       use of a pick list to identify GS-13 CAG factors when re-grading cases. Additional
       enhancements are scheduled for January 2011 to require that an additional pick list be
       used to identify the CAG subelements as well.
Recommendation 3: Clarify CAG factor elements to make them less subjective and
eliminate instances where they are vague, and assess whether each CAG factor contributes
equally to the relative complexity of the case and if the methodology for justifying re-grading to
a GS-13 is commensurate with the case complexity.
       Management’s Response: IRS management agreed with this recommendation and
       will form a team to evaluate and recommend changes to the Director, Collection, to
       improve the effectiveness and efficiency of managers using appropriate CAG factors to
       manually identify GS-13 cases. Changes will include reducing or eliminating the
       subjectivity of CAG factors and may apply to manual grading as well as systemic
       enhancements.
Recommendation 4: Establish methods to improve the effectiveness and efficiency of
manually identifying GS-13 RO cases. For example, systemically identify cases that meet two
GS-13 CAG factors so that group managers can focus their efforts when identifying cases from
the Queue.
       Management’s Response: IRS management agreed with this recommendation and
       will form a team to address this issue as outlined in Recommendation 3.
The Director, Planning and Analysis, SB/SE Division, should:
Recommendation 5: Identify methods to expand the number of GS-13 cases meeting the
Range of Case Issues CAG factor that can be identified systemically using Inventory Delivery
System enhancements currently being developed.
       Management’s Response: IRS management agreed with this recommendation and
       will consider and submit a request for systemic changes to the Inventory Delivery System
       upon completion of Recommendations 3 and 4.
Recommendation 6: Compare and monitor the actual number of GS-13 graded cases that
have been identified and assigned to GS-13 ROs with the number of estimated cases that was
used to determine more GS-13 ROs were needed and make adjustments to the forecasting
methodology as appropriate.

                                                                                           Page 10
                           Improvements Are Needed When
                        Identifying Revenue Officer Casework



Management’s Response: IRS management agreed with this recommendation and
the Director, Collection Planning and Analysis, will monitor the number of GS-13 graded
cases and use this information in determining the appropriate GS-13 RO resources
needed.
However, management disagreed with our outcome measure. The IRS stated that the
calculation for the cost of GS-13 RO salaries did not consider inventory adjustments
made for legitimate business reasons. The IRS believes the number of ROs used in the
calculation should reflect the percentage of ROs on an adjusted (reduced) inventory and,
based on August 2009 data, the estimated additional costs calculation should be
decreased by 28 percent.
Office of Audit Comment: The Internal Revenue Manual does not provide that the
number of GS-13 cases be adjusted due to time spent on collateral duties. The IRS
response implies the inventory reduction should be proportional to the complexity of the
target inventory but, since there is no policy, we did not make this assumption. For
example, the GS-12 and lower graded cases could be reduced from the GS-13 RO’s
inventory first, which would not impact the GS-13 graded inventory.
The Internal Revenue Manual states that GS-13 ROs have a minimum of approximately
20 GS-13 cases in their inventory. Our outcome measure was based on how many GS-13
ROs would be needed using the number of GS-13 cases in the inventory as of June 2009
(not August 2009 data) and the minimum 20 cases for each GS-13 RO.




                                                                                 Page 11
                                        Improvements Are Needed When
                                     Identifying Revenue Officer Casework



                                                                                               Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objective of this review was to determine whether the SB/SE Division is properly
applying the grade GS-13 case criteria and ensuring ROs 1 have an appropriate balance of
assigned cases. To accomplish this objective, we:
I.      Evaluated CAG policies, procedures, and goals.
        A. Reviewed the RO position occupational study and grade GS-13 proposal submitted to
           create the grade GS-13 RO position.
        B. Reviewed revisions to Internal Revenue Manual procedures, the CAG, and other
           guidance issued.
        C. Reviewed documentation on the planned RO case grading system and determine its
           status by verifying milestones and final dates.
II.     Determined the accuracy and consistency of the application of manual case assignment
        procedures for the grade GS-13 level by group managers.
        A. Selected a statistically valid sample of 135 grade GS-13 cases from a population of all
           2,543 open Integrated Collection System cases as of April 22, 2009. We used a
           statistical sample because we wanted to project the number of cases with errors. We
           used attribute sampling to calculate the minimum sample size (n), 2 equal to 135.
              n = (Z2 p(1-p))/(A2)                    135
              Z = Confidence Level:                   90 percent (expressed as 1.65 standard deviation)
              p = Expected Rate of Occurrence:        5 percent
              A = Precision Rate:                     ±3 percent
             1. Determined whether the cases were accurately scored and graded using the CAG
                criteria in Appendix V.
             2. Determined if the Integrated Collection System history is documenting the criteria
                that are being applied in case grading for manual graded cases in accordance with
                IRS procedures.



1
 See Appendix VI for a glossary of the terms.
2                    2         2
 The formula n = (Z p(1-p))/(A ) is from Sawyer’s Internal Auditing – The Practice of Modern Internal Auditing,
4th Edition, pp. 462-464.
                                                                                                        Page 12
                                  Improvements Are Needed When
                               Identifying Revenue Officer Casework



          3. Verified that group managers are properly documenting the determining factors
             for assignment in the Integrated Collection System history.
       B. Selected a small judgmental sample of 40 (out of 18,395) open GS-12 cases as of
          May 22, 2009, to ensure we reviewed GS-12 cases that were re-graded either
          systemically or manually by a group manager. We used judgmental sampling
          because we could not determine the population of GS-12 cases that were re-graded.
          1. Determined if the case level increase in the Integrated Collection System is a
             result of an appropriate change of the case level that meets three of the four
             criteria needed for a grade change.
          2. Verified that group managers are properly documenting the determining factors
             for manual re-grading cases in the Integrated Collection System history.
       C. Established the validity of the Integrated Collection System data being used in our
          review.
          1. Determined the completeness of Integrated Collection System open case data by
             reconciling information from a selected number of cases to Integrated Data
             Retrieval System Master File data.
          2. Performed standard logic and strata queries of Integrated Collection System open
             cases (by Taxpayer Identification Number, grade, date) to ensure the data are
             representative of the universe.
III.   Determined whether inventory levels for Collection Field function ROs have the proper
       number and mixture of cases assigned per grades GS-12 and GS-13.
       A. Selected a judgmental sample of the 6 Collection Field function groups (from a
          population of 61 groups) that contained the highest number of grade GS-13 ROs
          included in our sample in Step II.A. By judgmentally selecting the groups with the
          greatest number of GS-13 ROs, we ensured the group managers interviewed in
          Step III.B. had experience manually identifying GS-13 cases and trying to maintain
          the proper GS-13 inventory levels.
          1. Verified that the inventory levels for the ROs in these groups are in compliance
             with CAG case inventory criteria.
          2. Verified that the grade levels of the cases assigned to the grade GS-12 and
             GS-13 ROs in these groups are in compliance with CAG case inventory criteria.
       B. For the groups selected in Step III.A., interviewed the group managers to determine
          their policies and practices for delivering GS-13 grade level cases to their respective
          groups and maintaining proper case inventory levels. We also assessed the impact on


                                                                                         Page 13
                                   Improvements Are Needed When
                                Identifying Revenue Officer Casework



           workload delivery and planning at the group level of the Queue not reflecting the
           volume of grade GS-13 level cases in inventory.
       C. Reviewed the target inventory reports for the groups selected in Step III.A. and
          assessed how they are used in monitoring ROs inventory levels.
IV.    Determined whether the Collection Field function inventory supports the number of
       grade GS-13 ROs.
       A. Analyzed the September 30th Collection function inventory reports for FYs 2006,
          2007, and 2008, and the June 30th report of FY 2009 to determine whether the number
          of grade GS-13 ROs is appropriate based on the volume of grade GS-13 cases.
Internal controls methodology
Internal controls relate to the management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the SB/SE Division Collection function’s
policies, procedures, and practices for re-grading cases by Collection Field function group
managers. We evaluated these controls by interviewing management and reviewing Integrated
Collection System case histories.




                                                                                         Page 14
                                 Improvements Are Needed When
                              Identifying Revenue Officer Casework



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl L. Aley, Director
Timothy F. Greiner, Audit Manager
Meaghan R. Shannon, Lead Auditor
Philip Peyser, Senior Auditor
Charles Steven Nall, Auditor
Niurka M. Thomas, Auditor




                                                                                      Page 15
                                Improvements Are Needed When
                             Identifying Revenue Officer Casework



                                                                           Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Collection, Small Business/Self-Employed Division SE:S:C
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C:CP
Director, Planning and Analysis, Small Business/Self-Employed Division SE:S:C:PA
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                   Page 16
                                      Improvements Are Needed When
                                   Identifying Revenue Officer Casework



                                                                                    Appendix IV

                                  Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•     Reliability of Information – Potential; 1,356 open GS-13 cases as of April 22, 2009, that did
      not include proper documentation to support the group managers’ decision to re-grade the
      cases to GS-13 (see page 3).
•     Reliability of Information – Potential; 301 open GS-13 cases as of April 22, 2009, that did
      not include information to warrant re-grading the cases to GS-13 (see page 3).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 135 open Integrated Collection System GS-13 level cases,
we determined that in 72 cases (53 percent), 1 the group managers did not properly document the
factors used to re-grade the cases in the Integrated Collection System histories. We also
identified 16 (12 percent) 2 of 135 cases for which the case file did not include information to
warrant re-grading to the grade GS-13 level. The sample was selected based on a confidence
level of 90 percent, a precision rate of ±3 percent, and an expected rate of occurrence of
5 percent. We projected the error rate (53 percent) for the not properly documented cases to the
total population of 2,543 open GS-13 cases on the Integrated Collection System as of April 22,
2009, totaling 1,356 cases. We also projected the error rate (12 percent) for cases not warranting
re-grading to the total population of 2,543 open GS-13 cases on the Integrated Collection System
as of April 22, 2009, totaling 301 cases.

Type and Value of Outcome Measure:
•     Inefficient Use of Resources – Potential; $3.9 million in salary cost associated with the
      insufficient use of GS-13 RO resources (see page 3).




1
    Rounded from 53.33 percent
2
    Rounded from 11.85 percent
                                                                                             Page 17
                                          Improvements Are Needed When
                                       Identifying Revenue Officer Casework




Methodology Used to Measure the Reported Benefit:
Using the Collection function target inventory reports for June 30, 2009, we determined that
1,757 grade GS-13 cases were assigned to GS-13 ROs. We reduced the 1,757 by the 208 grade
GS-13 cases that we estimate did not warrant re-grading to GS-13, 3 equaling 1,549 grade
GS-13 cases. Based on the minimum of 20 grade GS-13 cases, we calculated 78 GS-13 ROs
were supported by a sufficient number of grade GS-13 cases while 70 (out of 148) 4 GS-13 ROs
were not supported. We multiplied the difference between the base salaries of GS-12 and GS-13
grade levels ($11,232) without adjusting for any locality pay by 70 for a total of $786,240. We
projected this amount over the next 5 years, totaling $3,931,200.




3
  1,757 GS-13 cases as of June 30, 2009, multiplied by the error rate (rounded to 12 percent) pertaining to cases that
did warrant re-grading to the grade GS-13 level (1,757 X 11.85% = 208).
4
  There were 148 GS-13 ROs as of June 30, 2009.
                                                                                                             Page 18
                                    Improvements Are Needed When
                                 Identifying Revenue Officer Casework



                                                                                   Appendix V

                Case Assignment Guide for Grade12
                  and Grade 13 Revenue Officers

Manual Criteria for Grading Taxpayer Delinquency Accounts and Taxpayer Delinquency
Inquiry
Use the following criteria for re-grading cases after assignment to ROs. Group managers will
not normally change the grade of a case unless it meets at least three of the four factors at the
lower or higher level. The group manager will document in the case history the reason for not
using at least three of the four factors when applicable. The factors are:
Factor 1 – Nature of Entity
Grade 13: *****2(c),2(f)***************
*************2(c),2(f)*********************************************************
****************************************************************************
*******************.
*******************2(c),2(f)**************************************************
******************2(c),2(f)**************************************************
*****************2(c),2(f)***************************************************
********.
Factor 2 – Range of Case Issues
Grade 13:
A. Multi-faceted and intricate financial investigations where taxpayers employ subterfuges to
conceal income and assets (e.g., wire transfers, multiple sets of books, records from layered
entities) (Abusive Tax Avoidance Transactions cases included).
B. Highly unique forms of assets that offer a challenge when taking enforcement action.
Coordination with Federal, State, and local agencies (e.g., hazardous materials). Unique sources
of income such as e-commerce or Internet-based businesses and other emerging industries
(e.g., large employing leasing companies).
C. Significant imbalance between income and assets with no clear explanation or basis
(e.g., minimal income with substantial assets, individuals with no assets and no income but a
high standard of living).


                                                                                            Page 19
                                    Improvements Are Needed When
                                 Identifying Revenue Officer Casework



D. Highly complex forms of ownership designed to shield income or assets (e.g., multilayered
entities, Limited Liability Corporations, offshore entities and transactions).
E. Highly complex investigative techniques (e.g., multiple-entity nominee/alter-ego
investigations, all suits including injunction and repatriation, complex jeopardy
assessments/levies).
F. Large business entities with complex financial structure and multiple business entity
relationships.
G. Joint investigations with the Examination function, the CID, and the Department of Justice.
Grade 12:
A. In-depth, detailed financial investigations involving sophisticated and difficult issues
(e.g., electronic funds transfers between multiple accounts) (Abusive Tax Avoidance
Transactions cases included).
B. Income and assets that are difficult to trace, specialized, highly valuable, or of a unique
nature.
C. Imbalance between income and assets with no clear explanation (e.g., income is not enough to
support existing assets).
D. Complex forms of ownership designed to shield income or assets (e.g., Limited Liability
Corporations, offshore entities and transactions, fraudulent conveyances, and family
relationships).
E. Complex investigative techniques (e.g., nominee, alter-ego, suits, jeopardy levies).
F. Large business entities with standard financial structure or mid-sized business with multiple
entity relationships and a complex financial structure.
G. Regular interaction with Counsel, the Examination function, the CID, and Appeals.
Factor 3 – Impact of Enforcement Action
Grade 13:
A. Extensive economic impact (e.g., Large business: Affecting wide employee base or having a
significant extended economic impact. Ripple effect for interrelated entities or feeder industries.
(Factor 1 criteria)).*
B. Intense media scrutiny and strong public reaction.*
C. Far-reaching compliance impact (e.g., promoters or other high-profile individuals within a
highly publicized Abusive Tax Avoidance Transactions promotion).*
*Refers to national or regional impact.

                                                                                              Page 20
                                    Improvements Are Needed When
                                 Identifying Revenue Officer Casework



Grade 12:
A. Pronounced community or economic impact (e.g., Large to medium sized business: action
impacting > 31 employees.)
B. Potential for media scrutiny and public reaction.
C. State or local compliance impact.
Factor 4 – Personal Contacts
Grade 13:
A. Representatives from nationally prominent accounting firms, law firms, and financial
institutions.
B. National political figures. Nationally known high-profile individuals, business
owner/officers, or organizations (i.e., entertainers, sports figures, promoters).
C. Interaction with Chief Counsel, Area Counsel, Department of Justice, United States
Attorney’s Office, Examination function, CID, Appeals, and high-level Federal and State
government agency representatives.
D. Owners or corporate officers of foreign entities reporting complex business transactions.
Grade 12:
A. Representatives from large State and regional accounting firms, law firms, and financial
institutions.
B. Large business owners or corporate officers, often well known within the State. State and
local political figures. High-profile individuals or organizations/individuals at the State or local
level.
C. Routine interaction with Area Counsel, Examination function, CID, Appeals, and other
internal stakeholders.
D. Owners or corporate officers of foreign entities reporting limited transactions (e.g., foreign
return penalty assessments, asset ownership with no or limited financial transactions.)




                                                                                             Page 21
                                   Improvements Are Needed When
                                Identifying Revenue Officer Casework



                                                                                 Appendix VI

                                Glossary of Terms

Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Campuses – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Case Assignment Guide – A guide that includes the criteria used to determine the case
difficulty level. It includes the factors and elements used to manually score Taxpayer
Delinquency Accounts and Taxpayer Delinquency Inquiries in order to assign to the proper
RO grade. The CAG is the only tool available to front-line Collection function managers to help
them identify work for their GS-13 ROs.
Collection Field function – The unit in the Area Offices consisting of ROs who handle personal
contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
General Schedule – The basic classification and compensation system for white collar
occupations in the Federal Government.
Integrated Collection System – An information management system designed to improve
revenue collections by providing ROs access to the most current taxpayer information while in
the field using laptop computers for quicker case resolution and improved customer service.
Integrated Data Retrieval System – IRS computer system capable of retrieving or updating
stored information; it works in conjunction with a taxpayer’s account records.
Inventory Delivery System – A system that routes cases to the Automated Collection System,
Collection Field function, or the Queue according to risk-based collection criteria and decision
analytics.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
Pick List – A menu within the Integrated Collection System that lists the four CAG factors used
in changing the grade of a case.
Queue – A function of the Integrated Data Retrieval System that is an automated holding file for
unassigned inventory of delinquent cases for which the Collection function does not have enough
resources to immediately assign for contact.

                                                                                          Page 22
                                   Improvements Are Needed When
                                Identifying Revenue Officer Casework



Resources and Workload Management System – The scoring system used by the Collection
function in the assignment of cases. Several factors, including the grade level of difficulty for
RO assignment, affect the score.
Revenue Officers – Employees in the Collection Field function who attempt to contact
taxpayers and resolve collection matters that have not been resolved through notices sent by the
IRS campuses or the Automated Collection System.
Subject Matter Experts – A team of ROs and group managers assigned to a task force
responsible for determining the future tasks and competencies of ROs.
Taxpayer Delinquency Account – A balance due account of a taxpayer. A separate Taxpayer
Delinquency Account exists for each tax period.
Taxpayer Delinquency Inquiry – An unfiled tax return for a taxpayer. One Taxpayer
Delinquency Inquiry exists for all tax periods.




                                                                                           Page 23
               Improvements Are Needed When
            Identifying Revenue Officer Casework



                                                   Appendix VII

Management’s Response to the Draft Report




                                                         Page 24
   Improvements Are Needed When
Identifying Revenue Officer Casework




                                       Page 25
   Improvements Are Needed When
Identifying Revenue Officer Casework




                                       Page 26
   Improvements Are Needed When
Identifying Revenue Officer Casework




                                       Page 27
   Improvements Are Needed When
Identifying Revenue Officer Casework




                                       Page 28
